Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 VERMONT STATE MEDICAID
  FRAUD CONTROL UNIT:
   2013 ONSITE REVIEW




                        Stuart Wright
                  Deputy Inspector General for
                   Evaluation and Inspections

                       December 2013
                       OEI-02-13-00360
EXECUTIVE SUMMARY: VERMONT STATE MEDICAID FRAUD CONTROL
UNIT: 2013 ONSITE REVIEW
OEI-02-13-00360

WHY WE DID THIS STUDY

The Office of Inspector General (OIG) oversees all Medicaid Fraud Control Units
(MFCUs or Units) with respect to Federal grant compliance. As part of this oversight,
OIG reviews all Units. These reviews assess Unit performance in accordance with the
12 MFCU performance standards and monitor Unit compliance with Federal grant
requirements, laws, and regulations.

HOW WE DID THIS STUDY

We based our review on an analysis of data from six sources: (1) a review of policies,
procedures, and documentation related to the Unit’s operations, staffing, and caseload;
(2) a review of financial documentation; (3) structured interviews with key stakeholders;
(4) structured interviews with the Unit’s management and staff; (5) an onsite review of
case files; and (6) an onsite review of Unit operations.

WHAT WE FOUND

From fiscal year (FY) 2010 through FY 2012, the Unit reported combined civil and
criminal recoveries of $15 million, 18 convictions, and 36 civil settlements and judgments.
Although most case files indicated supervisory approval to open and close cases, almost
all lacked documentation of periodic supervisory reviews. The Director and staff
reported that such reviews occur on a regular basis but are not generally documented in
the case files. Also, the Unit did not refer all convictions to OIG appropriately. In
addition, large caseloads hinder the Unit’s ability to investigate and prosecute fraud and
abuse in a timely manner. Lastly, we identified as beneficial (1) the Unit’s creation of
Provider Focus Teams to collaborate on existing cases with the Program Integrity Unit in
the Department of Vermont Health Access; and (2) the development of the Elder Justice
Working Group, which has initiated an effort to reduce the use of antipsychotics in
nursing homes in Vermont.

WHAT WE RECOMMEND

We recommend that the Unit (1) ensure that case files contain documentation of
supervisory reviews; (2) ensure that all convicted individuals are appropriately referred to
OIG for program exclusion; and (3) assess the adequacy of existing staffing levels and
take appropriate action based on that assessment. The Unit concurred with all three of
our recommendations.
TABLE OF CONTENTS

Objective ......................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................5 

Findings........................................................................................................7 

           From FY 2010 through FY 2012, the Unit reported combined 

           civil and criminal recoveries of $15 million, 18 convictions, and 

           36 civil settlements and judgments ...................................................7 

           Although most case files indicated supervisory approval to open 

           and close cases, almost all lacked documentation of periodic

           supervisory reviews ..........................................................................8 

           The Unit did not refer all convictions to OIG appropriately .............8 

           Large caseloads hinder the Unit’s ability to investigate and 

           prosecute fraud and abuse in a timely manner .................................9 

           Other observations: Provider Focus Teams and Elder Abuse 

           Working Group ..............................................................................10 

Conclusion and Recommendations… ........................................................12 

           Unit Comments ..............................................................................13 

Appendixes ................................................................................................14 

           A: 	Performance Standards for Medicaid Fraud Control Units .....14 

           B: 	2012 Revised Performance Standards .....................................18 

           C: Referrals of Patient Abuse and Neglect, Provider Fraud, and 

           Theft of Patient Funds to the Medicaid Fraud Control Unit by 

           Source, Fiscal Years 2010 through 2012 ........................................24 

           D: 	Cases Opened and Closed by Provider Category and Case 

               Type, Fiscal Years 2010 through 2012 .....................................25 

           E: 	Confidence Intervals for Estimates ..........................................28 

           F: Unit Comments.........................................................................29 

Acknowledgments......................................................................................32 

                   OBJECTIVE
                   To conduct an onsite review of the Vermont State Medicaid Fraud Control
                   Unit (MFCU or Unit).

                   BACKGROUND
                   The mission of State MFCUs, as established by Federal statute, is to
                   investigate fraud and patient abuse and neglect by Medicaid providers and
                   to prosecute it under State law.1 Pursuant to Title XIX of the SSA, each
                   State must maintain a certified Unit unless the Secretary of Health and
                   Human Services determines that operation of a Unit would not be
                   cost-effective because (1) minimal Medicaid fraud exists in that State and
                   (2) the State has other adequate safeguards to protect Medicaid
                   beneficiaries from abuse and neglect.2 Currently, 49 States and the
                   District of Columbia (States) have created such Units.3 In fiscal year
                   (FY) 2012, combined Federal and State grant expenditures for the Units
                   totaled $217.3 million, with Federal funds representing $162.9 million of
                   this amount.4 In FY 2012, the Vermont Unit was awarded $913,816 in
                   combined State and Federal funds.5
                   To carry out its duties and responsibilities in an effective and efficient
                   manner, each Unit must employ an interdisciplinary staff that consists of at
                   least an investigator, an auditor, and an attorney.6 Unit staff review
                   complaints provided by the State Medicaid agency and other sources and
                   determine their potential for criminal prosecution and/or civil action. In
                   FY 2012, the 50 Units collectively obtained 1,337 convictions and
                   823 civil settlements or judgments.7 That year, the Units reported
                   recoveries of approximately $2.9 billion.


                   1
                     Social Security Act (SSA) § 1903(q).

                   2
                     SSA §§ 1902(a)(61). Regulations at 42 CFR § 1007.11(b)(1) add that the Unit’s 

                   responsibilities may include reviewing complaints of misappropriation of patients’ 

                   private funds in residential health care facilities. 

                   3
                     North Dakota and the territories of American Samoa, Guam, the Northern Mariana 

                   Islands, Puerto Rico, and the U.S. Virgin Islands have not established Units. 

                   4
                     OIG, State Medicaid Fraud Control Units Fiscal Year 2012 Grant Expenditures And 

                   Statistics, March 2013. Accessed at https://oig.hhs.gov/fraud/medicaid-fraud-control-
                   units-mfcu/expenditures_statistics/fy2012.asp on March 5, 2013. All FY references in

                   this report are based on the Federal FY (October 1 through September 30).

                   5
                     Office of Inspector General (OIG) analysis of Notice of Award for Vermont for 

                   FY 2012. 

                   6
                     SSA § 1903(q)(6) and 42 CFR § 1007.13.

                   7
                     OIG, State Medicaid Fraud Control Units Fiscal Year 2012 Grant Expenditures And 

                   Statistics, March 2013. Accessed at https://oig.hhs.gov/fraud/medicaid-fraud-control-
                   units-mfcu/expenditures_statistics/fy2012.asp on March 5, 2013.



Vermont State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00360)                            1
                   Units are required to have either Statewide authority to prosecute cases or
                   formal procedures to refer suspected criminal violations to an agency with
                   such authority.8 In Vermont and 43 other States, the Units are located
                   within offices of State Attorneys General; in the remaining six States, the
                   Units are located in other State agencies.9 Generally, Units outside of the
                   Attorneys General offices must refer cases to other offices with
                   prosecutorial authority.
                   Additionally, each Unit must be a single identifiable entity of State
                   government, distinct from the State Medicaid agency, and each Unit must
                   develop a formal agreement—i.e., a Memorandum of Understanding
                   (MOU)—that describes the Unit’s relationship with that agency.10
                   Oversight of the MFCU Program
                   The Secretary of Health and Human Services delegated to OIG the authority
                   to annually certify the Units and to administer grant awards to reimburse
                   States for a percentage of their costs in operating certified Units.11 All Units
                   are currently funded by the Federal Government on a 75-percent matching
                   basis, with the States contributing the remaining 25 percent.12 To receive
                   Federal reimbursement, each Unit must submit an initial application to
                   OIG.13 OIG reviews the application and notifies the Unit if the application is
                   approved and the Unit is certified. Approval and certification are for a
                   1-year period; the Unit must be recertified each year thereafter.14
                   Pursuant to Title XIX of the SSA, States must operate Units that effectively
                   carry out their statutory functions and meet program requirements.15 OIG
                   developed and issued 12 performance standards to define the criteria it
                   applies in assessing whether a Unit is effectively carrying out statutory




                   8
                     SSA § 1903(q)(1).

                   9
                     Among those States with a Unit, the Unit shares responsibility for protecting the 

                   integrity of the Medicaid program with the section of the State Medicaid agency that 

                   functions as the Program Integrity Unit. Some States also employ a Medicaid Inspector 

                   General who conducts and coordinates activities combating fraud, waste, and abuse for 

                   the State agency. 

                   10
                      SSA § 1903(q)(2); 42 CFR § 1007.9(d).

                   11
                      The portion of funds reimbursed to States by the Federal Government for its share of

                   expenditures for the Federal Medicaid program, including the MFCUs, is called Federal

                   Financial Participation.

                   12
                      SSA §1903(a)(6)(B). 

                   13
                      42 CFR § 1007.15(a). 

                   14
                      42 CFR § 1007.15(b) and (c). 

                   15
                      SSA § 1902(a)(61).




Vermont State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00360)                           2
                   functions and meeting program requirements.16 Examples include
                   maintaining an adequate caseload through referrals from several sources,
                   maintaining an annual training plan for all professional disciplines, and
                   establishing policy and procedure manuals to reflect the Unit’s operations.
                   See Appendix A for a complete list of the 1994 performance standards and
                   Appendix B for a complete list of the 2012 performance standards.
                   Vermont Unit
                   In Vermont, the MFCU is known as the Medicaid Fraud and Residential
                   Abuse Unit, and is located in the Vermont Attorney General’s Office. The
                   Unit Director reports to the Chief of the Criminal Division, who reports to
                   the Deputy Attorney General. The Unit has the authority to prosecute
                   Medicaid fraud and patient abuse and neglect cases.
                   As of January 2013, the Unit had eight employees: the Unit Director, who
                   also serves as an attorney; two additional attorneys; two investigators; two
                   auditors (who in the Vermont Unit are known as “fiscal and regulatory
                   analysts,” or “analysts”); and a program technician.
                   The Unit receives referrals of provider fraud from a variety of sources,
                   including the Program Integrity Unit in the Department of Vermont Health
                   Access; the Survey and Certification program, part of the Division of
                   Licensing and Protection in the Vermont Department of Aging and
                   Independent Living; and the Vermont Department of Health. The Unit
                   receives referrals of patient abuse and neglect from a variety of sources,
                   including the Survey and Certification program; Adult Protective Services,
                   which is also part of the Department of Aging and Independent Living;
                   and the Office of Professional Regulation, part of the Office of the
                   Vermont Secretary of State. From FY 2010 through FY 2012, the Unit
                   received a total of 224 referrals of fraud, 241 referrals of patient abuse and
                   neglect, and 69 referrals of theft of patient funds—an average of 75, 80,
                   and 23 referrals, respectively, each year. See Appendix C for a
                   breakdown of referrals by type, year, and source.
                   When the Unit receives a referral, the Director decides either to accept it
                   after initial review of the complaint, or to defer a decision pending a
                   preliminary investigation. If necessary, the referral is also reviewed by the
                   Unit Case Intake Committee. This committee consists of the Unit
                   Director, an attorney, an investigator, and an analyst. The Director assigns
                   open cases to an investigative team. Investigative teams are led by one of

                   16
                      59 Fed. Reg. 49080 (Sept. 26, 1994). Accessed at http://oig.hhs.gov on
                   November 5, 2012. OIG published a revision of the performance standards, 77 Fed. Reg.
                   32645 (June 1, 2012). This review applies the previous standards (published on
                   September 26, 1994) for the review period of FY 2010 through May 31, 2012, and the
                   standards published on June 1, 2012, when assessing Unit operations after May 31, 2012.



Vermont State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00360)                          3
                   two Unit attorneys (or the Unit Director), with support from one of two
                   investigators, one of two analysts, and the program technician. See
                   Appendix D for additional information on the Unit’s opened and closed
                   cases, including a breakdown by case type and provider category.
                   The Unit may open a case and pursue it through a variety of actions,
                   including criminal prosecution or civil action. The Unit may close a case
                   through a criminal or civil resolution, through a referral to another agency,
                   or for other reasons. The Unit also participates in “global”—i.e.,
                   multi-State—civil cases, coordinated by the National Association of
                   Medicaid Fraud Control Units (NAMFCU).

                   METHODOLOGY
                   Our review covered the 3-year period of FYs 2010 through 2012. We
                   analyzed data from six sources: (1) a review of policies, procedures, and
                   documentation relating to the Unit’s operations, staffing, and caseload for
                   FYs 2010 through 2012; (2) a review of financial documentation for FYs
                   2010 through 2012; (3) structured interviews with key stakeholders;
                   (4) structured interviews with the Unit’s management and staff; (5) an
                   onsite review of case files that were open in FYs 2010 through 2012; and
                   (6) an onsite review of Unit operations conducted in July 2013.
                   We analyzed data from all six sources to describe the caseload and assess
                   the performance of the Unit. We also analyzed the data to identify any
                   opportunities for improvement and any instances in which the Unit did not
                   meet the performance standards or was not operating in accordance with
                   laws, regulations, and policy transmittals.17 In addition, we described
                   noteworthy practices that appeared to benefit the Unit, based on
                   statements from Unit staff, data analysis, and our own judgment. We did
                   not independently verify the effectiveness of these practices, but included
                   the information because it may be useful to other Units in their operations.
                   Data Collection and Analysis
                   Review of Unit Documentation. We requested and reviewed documentation,
                   policies, and procedures related to the Unit’s operations, staffing, and cases,
                   including its annual reports, quarterly statistical reports, and responses to
                   recertification questionnaires. We also requested and reviewed the Unit’s
                   data describing its caseload, prosecutions, and recoveries. Data collected
                   included information such as the number of referrals received by the Unit
                   and the number of investigations opened and closed.



                   17
                      All relevant regulations, statutes, and policy transmittals are available online at
                   http://oig.hhs.gov.



Vermont State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00360)                             4
                   Review of Fiscal Control. We reviewed the Unit’s control over its fiscal
                   resources to identify any internal control issues or other issues involving
                   use of resources. Prior to the onsite review, we reviewed the Unit’s
                   financial policies and procedures; its response to an internal control
                   questionnaire; and documents (such as financial status reports) related to
                   MFCU grants. During the onsite review, we reviewed a sample of the
                   Unit’s purchase and travel transactions. In addition, we reviewed vehicle
                   records, the equipment inventory, and a sample of time and effort records.
                   Interviews With Key Stakeholders. We conducted structured interviews
                   with seven individual stakeholders who were familiar with Unit
                   operations. We interviewed key stakeholders in (1) the Program Integrity
                   Unit; (2) Adult Protective Services; (3) the Survey and Certification
                   Program; (4) the Office of Professional Regulation; and (5) the
                   Administrator of Children’s Personal Care Services, an agency within the
                   Vermont Department of Health. We also interviewed (6) a Special Agent
                   in OIG’s Region I (the region that includes Vermont) who was familiar
                   with the Unit and (7) the Chief of the Criminal Division of the Attorney
                   General of Vermont. These interviews focused on the Unit’s interaction
                   with external agencies, Unit operations, opportunities for improvement,
                   and any practices that appeared to benefit the Unit and that may be useful
                   to other Units in their operations.
                   Interviews With Unit Management and Staff. We conducted structured
                   interviews with the Unit’s Director and staff. We asked the Director for
                   additional information to better understand the Unit’s operations, to identify
                   opportunities for improvement, to identify practices that appeared to benefit
                   the Unit and that may be useful to other Units, and to clarify information
                   obtained from other data sources. We also interviewed the Unit’s two
                   analysts, two attorneys, two investigators, and the program technician. We
                   asked similar questions of these staff.
                   Onsite Review of Case Files. We selected a simple random sample of
                   100 case files from the 286 cases that were open at any point from
                   FY 2010 through FY 2012. The design of this sample allowed us to
                   estimate the proportion of all 286 case files with certain characteristics at
                   the 95-percent confidence level. We reviewed these 100 sampled case
                   files and the Unit’s processes for monitoring the status and outcomes of
                   cases. From these 100 case files, we selected another simple random
                   sample of 50 cases for a more in-depth review.
                   Onsite Review of Unit Operations. While onsite, we reviewed the Unit’s
                   operations. Specifically, we reviewed the Unit’s process for intake of
                   referrals, security of data and case files, and the general functioning of the
                   Unit.



Vermont State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00360)                    5
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.




Vermont State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00360)            6
                   FINDINGS
                   From FY 2010 through FY 2012, the Unit reported
                   combined civil and criminal recoveries of $15 million,
                   18 convictions, and 36 civil settlements and
                   judgments
                   Unit recoveries more than doubled from $3.7 million in FY 2010 to
                   $8.7 million in FY 2012. State-only—i.e., non-“global”—civil case
                   recoveries had the largest increase during this period, to $328,866.
                   Additionally, recoveries from “global” civil cases—i.e., multi-State
                   NAMFCU cases—more than doubled, accounting for 96 percent of total
                   recoveries in FY 2012. Over the 3-year period, the Unit reported
                   recoveries of $15 million—an average of $5 million annually. (See
                   Table 1.) The Unit also reported 18 convictions and 36 civil settlements
                   and judgments from FY 2010 through FY 2012.
                   Table 1: Unit Recoveries, FYs 2010 through 2012

                                                                                                      Annual
                                           FY 2010            FY 2011     FY 2012          Total     Average
                    Reported
                    Criminal
                    Recoveries               $7,598            $6,658     $10,230       $24,486       $8,162
                    Reported Civil
                    Recoveries –
                    State Only             $14,125        $200,990       $328,866      $543,981     $181,327
                    Reported Civil
                    Recoveries –
                    Global              $3,708,149      $2,454,715      $8,393,446   $14,556,309   $4,852,103

                    Total Reported
                    Recoveries
                                        $3,729,872      $2,662,362      $8,732,541   $15,124,775   $5,041,592
                   Source: OIG analysis of Unit data, 2013.

                   From FY 2010 through FY 2012, the overall number of referrals received
                   by the Unit decreased slightly, from 222 to 192. Additionally, the
                   breakdown of referrals changed, resulting in a decrease in the number of
                   patient abuse referrals and an increase in the number of fraud
                   referrals. This was primarily driven by a decrease in patient abuse
                   referrals—from 92 to 64—from the State Survey and Certification
                   program and an increase in fraud referrals—from 5 to 15—from the State
                   Program Integrity Unit. See Appendix B for more detailed information on
                   the number of referrals by source.




Vermont State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00360)                            7
                   Although most case files indicated supervisory
                   approval to open and close cases, almost all lacked
                   documentation of periodic supervisory reviews
                   According to Performance Standard 6, the Unit should complete cases
                   within a reasonable timeframe.18 As a part of this standard, supervisors
                   should approve the opening and closing of cases and supervisory reviews
                   should be “conducted periodically and noted in the case file” to ensure
                   timely case completion. In our review, we found that most case files
                   contained documentation indicating supervisory approval to open and
                   close the case. Specifically, 89 percent of case files had an opening
                   memorandum approved by the Director and 96 percent had a closing
                   memorandum approved by the Director. However, 96 percent of Unit
                   case files contained no documentation indicating periodic reviews, or at
                   least one supervisory review beyond opening and closing approval.19 See
                   Appendix E for confidence intervals.
                   Although the Director and staff reported that supervisory case reviews
                   occur on a regular basis, they acknowledged that these reviews were more
                   informal and not generally documented in the case files. The Director
                   noted, and Unit staff confirmed, that case supervision is conducted at
                   several points during the investigation and prosecution stages. For
                   example, case discussions are held during the complaint intake; the
                   opening of a complaint for full investigation; the development of a case
                   investigation plan; the case investigation; and the preparation of a
                   prosecution memorandum, charging recommendation, and decision. Case
                   supervision also occurs during weekly administrative meetings with the
                   Director, at quarterly staff meetings and individual team meetings, and on
                   an ad hoc basis with the Chief of the Criminal Division. The Unit’s
                   policies and procedures manual describes procedures for several of these
                   supervisory reviews.

                   The Unit did not refer all convictions to OIG
                   appropriately
                   According to Performance Standard 8(d), the Unit must send reports of
                   convictions to OIG “within 30 days or other reasonable time period” for
                   the purpose of excluding individuals and entities from participation in

                   18
                      Performance standards cited in this report are found at 59 Fed. Reg. 49080 and dated
                   Sept. 26, 1994, unless otherwise noted.
                   19
                      Of the 100 case files we reviewed, 25 were for multi-State cases that—because they
                   involved NAMFCU—were worked on primarily by the Unit Director. Because the Unit
                   Director was the only supervisor of these cases in the Unit, we excluded these 25 case
                   files from our analysis of documented periodic supervisory review. Of the remaining
                   75 case files, only 3 included documentation of periodic supervisory reviews.



Vermont State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00360)                              8
                   Federally funded healthcare programs, including Medicare and
                   Medicaid.20 If a Unit fails to properly ensure that convicted providers are
                   referred for exclusion, those providers may be able to continue to submit
                   fraudulent claims and receive payments.
                   From FY 2010 through FY 2012, the Vermont Unit’s investigations
                   resulted in the sentencing of 18 individuals for health care fraud or for
                   abuse, neglect, or financial exploitation of patients. Of these, 8 were
                   referred to OIG for exclusion within 30 days. Another 5 were referred
                   within 31 to 50 days, and 2 were referred more than 100 days after
                   sentencing. The Director explained that in these two cases, the referrals
                   were delayed because the Unit was awaiting resolution of restitution
                   hearings. In addition, the Unit did not refer 3 of the 18 cases for
                   exclusion. These three cases were prosecuted in conjunction with an OIG
                   agent and the U.S. Attorney’s Office in the District of Vermont. The Unit
                   Director explained that the Unit played a secondary role and did not
                   ensure that the paperwork was submitted.

                   Large caseloads hinder the Unit’s ability to investigate
                   and prosecute fraud and abuse in a timely manner
                   According to current Performance Standard 2(b), the Unit “employs a total
                   number of professional staff that is commensurate with the State’s total
                   Medicaid program expenditures and that enables the Unit to effectively
                   investigate and prosecute (or refer for prosecution) an appropriate volume
                   of case referrals and workload for both Medicaid fraud and patient abuse
                   and neglect.”

                   Although the Unit was at the staffing level approved by OIG at the time of
                   our review, the Unit Director and almost all staff reported that limited staff
                   size and large caseloads make it difficult to investigate and prosecute
                   cases in a timely manner. Unit investigators reported having caseloads of
                   between 36 and 40 cases each, whereas they said that the ideal caseload
                   would be between 10 and 20 cases each. The national average is 18 cases
                   per investigator. 21

                   20
                      Under 42 U.S.C. § 1320a-7(a), OIG is required to exclude from participation in Federal
                   health care programs any person or entity convicted of a criminal offense related to the
                   delivery of an item or service under the Medicaid program or to the neglect or abuse of
                   patients in residential health care facilities. See also 42 CFR § 1001.1901. For
                   individuals and entities convicted of program-related crimes, patient abuse, felony health
                   care fraud, and felonies relating to controlled substances, a mandatory exclusion is
                   required.
                   21
                      For FY 2012, the number of investigators Nationwide was 841 and the number of cases
                   was 15,534. The number of cases can be accessed at http://oig.hhs.gov/fraud/medicaid-
                   fraud-control-units-mfcu/expenditures_statistics/fy2012-statistical-chart.htm.



Vermont State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00360)                             9
                   Additionally, the Director identified the size of the Unit’s caseload as the
                   main obstacle preventing the Unit from meeting timeliness goals. He
                   noted that in addition to cases being deferred pending his decisions on
                   how to proceed with them; cases are occasionally closed due to lack of
                   resources and then must be returned to the referring agency. He said that
                   the Unit has a “critical need” for staff, adding: “[W]e place an enormous
                   burden on our investigators.” According to the Unit Director, when the
                   Unit was created in 1979, it had six positions to investigate and prosecute
                   fraud and the Vermont Medicaid program had a budget of $800,000. In
                   2012, the budget of the Vermont Medicaid program had increased to more
                   than $1 billion—more than a tenfold increase since 1979—yet the Unit’s
                   staff had increased to just eight permanent positions.22

                   Unit staff also indicated that large caseloads hinder their efforts.
                   According to one staff member, “[I]t is difficult because [the investigators]
                   have so much work … we get backlogged sometimes.” He added that the
                   Unit’s policy to conduct biannual case reviews is affected, noting “the
                   cases that are languishing may or may not get a 6 month review.” Other
                   staff members expressed similar concerns about the amount of cases and
                   the delays created by caseload size. One staff member noted that to
                   improve the Unit’s performance, “[W]e need to get ourselves to the point
                   where we have a manageable caseload.”

                   Stakeholders concurred that large caseloads hinder the Unit’s ability to
                   handle cases in a timely manner. The Director of the Program Integrity
                   Unit, whose agency provides an increasing number of referrals to the Unit,
                   noted that “the Unit needs more staff to catch up to the increase in
                   referrals.” He further stated that lack of staffing resources is the Unit’s
                   biggest problem, adding that it “would improve their effectiveness if they
                   had more investigators and attorneys.” Another stakeholder expressed
                   concerns with the Unit’s current caseload, saying that cases are delayed
                   “because [Unit staff] are overloaded and can’t move the cases” and that
                   “they sometimes have too many cases to get to.” Another stakeholder
                   said, “[I]t would be beneficial if they had a larger staff. They have a lot on
                   their plate.”

                   Other observations: Provider Focus Teams and Elder
                   Justice Working Group



                   22
                    Vermont MFCU responses to the Vermont MFCU FY 2012 Recertification
                   Questionnaire. OIG recertifies Units each year. As part of that recertification process,
                   Units submit responses to a questionnaire to describe Unit operations and performance.



Vermont State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00360)                               10
                   In April 2011, the Unit Director created “Provider Focus Teams” in
                   collaboration with the Program Integrity Unit in the Department of
                   Vermont Health Access. These interagency teams were intended to
                   generate an increased number of referrals of new cases, facilitate existing
                   (i.e., already open) cases, develop provider training, and make program
                   recommendations. The teams, which consisted of one to two staff
                   members from the Unit and a similar number from the Program Integrity
                   Unit, met at least every other month. Each team focused on one of four
                   areas: mental health, narcotic prescribers, pharmacies, and durable
                   medical equipment.
                   Although the provider-focused teams did not meet the goal of increasing
                   the number of referrals and were discontinued, they had a number of
                   merits. According to the MFCU Director, the teams “had many indirect
                   benefits, [including] training, building relationships, [and] program
                   recommendations.” The Program Integrity Unit Director confirmed that
                   the teams were effective in coordinating provider training and in
                   generating program recommendations. The Director of the Program
                   Integrity Unit also said that the provider-focused teams were successful in
                   collaborating on existing cases. The MFCU Director agreed, noting that
                   having these interagency teams meet on a regular basis to discuss open
                   cases fostered discussion, and that as a result, the Unit received more
                   substantive referrals from the Program Integrity Unit.
                   In addition, in June 2011, the MFCU Unit Director helped create the
                   Vermont Elder Justice Working Group, consisting of representatives from
                   State and Federal advocacy, regulatory, and law enforcement agencies.
                   The group’s mission is to create opportunities for improving quality health
                   care for the elderly in long-term care settings and other caregiving
                   programs by improving communications among stakeholders and law
                   enforcement.
                   The first initiative of the group focused on reducing prescriptions for, and
                   the administration of, unnecessary antipsychotic medication in elderly
                   residents with dementia. The group targeted Vermont nursing homes that
                   exceeded the national average for antipsychotic use and sent a written
                   educational alert that reported the numbers of residents in the facility who
                   were prescribed antipsychotics and how those numbers compared to the
                   average numbers in nursing homes in Vermont and the Nation. The group
                   plans to provide nursing homes with followup educational alerts on a
                   biannual basis until the facilities reach rates of use that are at or below the
                   national average.




Vermont State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00360)                 11
                   CONCLUSION AND RECOMMENDATIONS
                   From FY 2010 through 2012, the Unit reported combined civil and
                   criminal recoveries of $15 million, 18 convictions, and 36 civil settlements
                   and judgments. Although most case files indicated supervisory approval to
                   open and close cases, almost all lacked documentation of periodic
                   supervisory reviews. The Director and staff reported that such reviews
                   occur on a regular basis but are not generally documented in the case files.
                   Also, the Unit did not refer all convictions to OIG appropriately. In
                   addition, large caseloads hinder the Unit’s ability to investigate and
                   prosecute fraud and abuse in a timely manner. Lastly, we identified as
                   beneficial the Unit’s creation of Provider Focus Teams to collaborate on
                   existing cases with the Program Integrity Unit, and the development of the
                   Elder Justice Working Group, which has initiated an effort to reduce the
                   use of antipsychotics in nursing homes in Vermont.

                   We recommend that the Unit:
                   Ensure that case files contain documentation of supervisory
                   reviews
                   The Unit should develop a means of documenting its regular supervisory
                   case file reviews and ensure that this documentation is included in each
                   individual case file.
                   Ensure that all convicted individuals are appropriately referred
                   to OIG for program exclusion
                   The Unit should ensure that all convictions are referred to OIG for purposes
                   of program exclusion within 30 days of sentencing, in accordance with
                   Performance Standard 8(d) of the 2012 performance standards.
                   Assess the adequacy of existing staff levels and take
                   appropriate action based on that assessment
                   The Unit should assess whether professional staffing levels are
                   commensurate with the State’s total Medicaid program expenditures.
                   Additionally, the Unit should determine whether existing staffing levels
                   are sufficient to respond to the volume of referrals and to investigate and
                   prosecute all the Unit’s cases in a timely manner. The Unit should take
                   appropriate action based on that assessment.




Vermont State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00360)                  12
                   UNIT COMMENTS
                   The Vermont Unit concurred with all three of our recommendations and
                   noted that the actions it cited in each of its responses to the
                   recommendations had been implemented or were in the process of being
                   implemented.
                   The Unit concurred with our recommendation to ensure that case files
                   contain documentation of supervisory reviews. The Unit reported that it
                   has developed a form for this purpose. Going forward, the Unit will
                   complete this form for each complaint opened for full investigation. To
                   the extent possible, the Unit will also complete the form retroactively for
                   significant investigations that are currently open.
                   The Unit concurred with our recommendation to ensure that all convicted
                   individuals are appropriately referred to OIG for program exclusion. The
                   Unit reported that it updated its policies and procedures to reflect the new,
                   clarified timetable for reporting convictions, and that it has met with the
                   HHS-OIG exclusion officer for New England to discuss the exclusion
                   paperwork process. The Unit will also report convictions to OIG for
                   exclusion even when the Unit has only a secondary role in the prosecution
                   and an OIG agent is the lead investigator.
                   Finally, the Unit concurred with our recommendation to assess the
                   adequacy of existing staff levels and take appropriate action based on that
                   assessment. The Unit noted that over the next 6 months, it will assess
                   whether staffing levels are (1) commensurate with Vermont’s total
                   Medicaid program expenditures and (2) sufficient to respond to the
                   volume of the Unit's referrals and caseload. On the basis of this
                   assessment, the Unit will then make a recommendation to senior
                   management in the Attorney General’s Office.
                   The full text of the Unit’s comments is provided in Appendix F.




Vermont State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00360)                  13
APPENDIX A
Performance Standards for Medicaid Fraud Control Units (Units)
[59 Fed. Reg. 49080, Sept. 26, 1994]
1. 	A Unit will be in conformance with all applicable statutes, regulations, and policy
    transmittals. In meeting this standard, the Unit must meet, but is not limited to, the
    following requirements:
    a.	 The Unit professional staff must consist of permanent employees working 

        full-time on Medicaid fraud and patient abuse matters. 

    b.	 The Unit must be separate and distinct from the single State Medicaid agency.
    c.	 The Unit must have prosecutorial authority or an approved formal procedure for
        referring cases to a prosecutor.
    d.	 The Unit must submit annual reports, with appropriate certifications, on a timely
        basis.
    e.	 The Unit must submit quarterly reports on a timely basis.
    f.	 The Unit must comply with the Americans with Disabilities Act, the Equal
        Employment opportunity requirements, the Drug Free workplace requirements,
        Federal lobbying restrictions, and other such rules that are made conditions of the
        grant.
2. 	A Unit should maintain staff levels in accordance with staffing allocations
    approved in its budget. In meeting this standard, the following performance
    indicators will be considered:
    a.	 Does the Unit employ the number of staff that was included in the Unit’s budget
        as approved by [the Office of Inspector General (OIG)]?
    b.	 Does the Unit employ the number of attorneys, auditors, and investigators that
        were approved in the Unit’s budget?
    c.	 Does the Unit employ a reasonable size of professional staff in relation to the
        State’s total Medicaid program expenditures?
    d.	 Are the Unit office locations established on a rational basis and are such locations
        appropriately staffed?
3. 	A Unit should establish policies and procedures for its operations, and maintain
    appropriate systems for case management and case tracking. In meeting this
    standard, the following performance indicators will be considered:
    a.	 Does the Unit have policy and procedure manuals?
    b.	 Is an adequate, computerized case management and tracking system in place?




Vermont State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00360)             14
4. A Unit should take steps to ensure that it maintains an adequate workload
    through referrals from the single State agency and other sources. In meeting this
    standard, the following performance indicators will be considered:
    a.	 Does the Unit work with the single State Medicaid agency to ensure adequate
        fraud referrals?
    b.	 Does the Unit work with other agencies to encourage fraud referrals?
    c.	 Does the Unit generate any of its own fraud cases?
    d.	 Does the Unit ensure that adequate referrals of patient abuse complaints are
        received from all sources?
5. 	A Unit’s case mix, when possible, should cover all significant provider types. In
    meeting this standard, the following performance indicators will be considered:
    a.	 Does the Unit seek to have a mix of cases among all types of providers in the
        State?
    b.	 Does the Unit seek to have a mix of Medicaid fraud and Medicaid patient abuse
        cases?
    c.	 Does the Unit seek to have a mix of cases that reflect the proportion of Medicaid
        expenditures for particular provider groups?
    d.	 Are there any special Unit initiatives targeting specific provider types that affect
        case mix?
    e.	 Does the Unit consider civil and administrative remedies when appropriate?
6. 	A Unit should have a continuous case flow, and cases should be completed in a
    reasonable time. In meeting this standard, the following performance indicators will
    be considered:
    a.	 Is each stage of an investigation and prosecution completed in an appropriate time
        frame?
    b.	 Are supervisors approving the opening and closing of investigations?
    c.	 Are supervisory reviews conducted periodically and noted in the case file?
7. 	A Unit should have a process for monitoring the outcome of cases. In meeting this
    standard, the following performance indicators will be considered:
    a.	 The number, age, and type of cases in inventory.
    b.	 The number of referrals to other agencies for prosecution.
    c.	 The number of arrests and indictments.
    d.	 The number of convictions.
    e.	 The amount of overpayments identified.




Vermont State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00360)                15
    f.	 The amount of fines and restitution ordered.
    g.	 The amount of civil recoveries.
    h.	 The numbers of administrative sanctions imposed.
8. 	A Unit will cooperate with OIG and other Federal agencies, whenever
    appropriate and consistent with its mission, in the investigation and prosecution
    of health care fraud. In meeting this standard, the following performance indicators
    will be considered:
    a.	 Does the Unit communicate effectively with OIG and other Federal agencies in
        investigating or prosecuting health care fraud in their State?
    b.	 Does the Unit provide OIG regional management, and other Federal agencies,
        where appropriate, with timely information concerning significant actions in all
        cases being pursued by the Unit?
    c.	 Does the Unit have an effective procedure for referring cases, when appropriate,
        to Federal agencies for investigation and other action?
    d.	 Does the Unit transmit to OIG, for purposes of program exclusions under
        section 1128 of the Social Security Act, reports of convictions, and copies of
        Judgment and Sentence or other acceptable documentation within 30 days or
        other reasonable time period?
9. 	A Unit should make statutory or programmatic recommendations, when
    necessary, to the State government. In meeting this standard, the following
    performance indicators will be considered:
    a.	 Does the Unit recommend amendments to the enforcement provisions of the
        State’s statutes when necessary and appropriate to do so?
    b.	 Does the Unit provide program recommendations to single State agency when
        appropriate?
    c.	 Does the Unit monitor actions taken by State legislature or State Medicaid agency
        in response to recommendations?
10. 	A Unit should periodically review its memorandum of understanding (MOU)
    with the single State Medicaid agency and seek amendments, as necessary, to
    ensure it reflects current law and practice. In meeting this standard, the following
    performance indicators will be considered:
    a.	 Is the MOU more than 5 years old?
    b.	 Does the MOU meet Federal legal requirements?
    c.	 Does the MOU address cross-training with the fraud detection staff of the State
        Medicaid agency?




Vermont State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00360)            16
    d.	 Does the MOU address the Unit’s responsibility to make program
        recommendations to the Medicaid agency and monitor actions taken by the
        Medicaid agency concerning those recommendations?
11. The Unit Director should exercise proper fiscal control over the Unit resources.
    In meeting this standard, the following performance indicators will be considered:
    a.	 Does the Unit Director receive on a timely basis copies of all fiscal and 

        administrative reports concerning Unit expenditures from the State parent 

        agency? 

    b.	 Does the Unit maintain an equipment inventory?
    c.	 Does the Unit apply generally accepted accounting principles in its control of Unit
        funding?
12. A Unit should maintain an annual training plan for all professional disciplines.
    In meeting this standard, the following performance indicators will be considered:
    a.	 Does the Unit have a training plan in place and funds available to fully implement
        the plan?
    b.	 Does the Unit have a minimum number of hours training requirement for each
        professional discipline, and does the staff comply with the requirement?
    c.	 Are continuing education standards met for professional staff?
    d.	 Does the training undertaken by staff aid in the mission of the Unit?




Vermont State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00360)          17
APPENDIX B
2012 Revised Performance Standards23
1. 	A unit conforms with all applicable statutes, regulations, and policy directives,
    including:
       a. Section 1903(q) of the Social Security Act, containing the basic requirements for
          operation of a MFCU;
       b. Regulations for operation of a MFCU contained in 42 CFR part 1007;
       c. Grant administration requirements at 45 CFR part 92 and Federal cost principles at
          2 CFR part 225;
       d. OIG policy transmittals as maintained on the OIG Web site; and
       e. Terms and conditions of the notice of the grant award.
2. A Unit maintains reasonable staff levels and office locations in relation to the
State’s Medicaid program expenditures and in accordance with staffing allocations
approved in its budget.
       a.	 The Unit employs the number of staff that is included in the Unit’s budget 

           estimate as approved by OIG. 

       b. The Unit employs a total number of professional staff that is commensurate with
          the State’s total Medicaid program expenditures and that enables the Unit to
          effectively investigate and prosecute (or refer for prosecution) an appropriate
          volume of case referrals and workload for both Medicaid fraud and patient abuse
          and neglect.
       c. The Unit employs an appropriate mix and number of attorneys, auditors,
          investigators, and other professional staff that is both commensurate with the
          State’s total Medicaid program expenditures and that allows the Unit to effectively
          investigate and prosecute (or refer for prosecution) an appropriate volume of case
          referrals and workload for both Medicaid fraud and patient abuse and neglect.
       d. The Unit employs a number of support staff in relation to its overall size that
          allows the Unit to operate effectively.
       e. To the extent that a Unit maintains multiple office locations, such locations are
          distributed throughout the State, and are adequately staffed, commensurate with
          the volume of case referrals and workload for each location.




23
     77 Fed. Reg. 32645, June 1, 2012.

Vermont State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00360)               18
3. A Unit establishes written policies and procedures for its operations and ensures
that staff are familiar with, and adhere to, policies and procedures.
   a.	 The Unit has written guidelines or manuals that contain current policies and
       procedures, consistent with these performance standards, for the investigation and
       (for those Units with prosecutorial authority) prosecution of Medicaid fraud and
       patient abuse and neglect.
   b. The Unit adheres to current policies and procedures in its operations.
   c. Procedures include a process for referring cases, when appropriate, to Federal and
      State agencies. Referrals to State agencies, including the State Medicaid agency,
      should identify whether further investigation or other administrative action is
      warranted, such as the collection of overpayments or suspension of payments.
   d. Written guidelines and manuals are readily available to all Unit staff, either online
      or in hard copy.
   e. Policies and procedures address training standards for Unit employees.
4. A Unit takes steps to maintain an adequate volume and quality of referrals from
the State Medicaid agency and other sources.
   a.	 The Unit takes steps, such as the development of operational protocols, to ensure
       that the State Medicaid agency, managed care organizations, and other agencies
       refer to the Unit all suspected provider fraud cases. Consistent with 42 CFR
       1007.9(g), the Unit provides timely written notice to the State Medicaid agency
       when referred cases are accepted or declined for investigation.
   b. The Unit provides periodic feedback to the State Medicaid agency and other
      referral sources on the adequacy of both the volume and quality of its referrals.
   c. The Unit provides timely information to the State Medicaid or other agency when
      the Medicaid or other agency requests information on the status of MFCU
      investigations, including when the Medicaid agency requests quarterly certification
      pursuant to 42 CFR 455.23(d)(3)(ii).
   d. For those States in which the Unit has original jurisdiction to investigate or
      prosecute patient abuse and neglect cases, the Unit takes steps, such as the
      development of operational protocols, to ensure that pertinent agencies refer such
      cases to the Unit, consistent with patient confidentiality and consent. Pertinent
      agencies vary by State but may include licensing and certification agencies, the
      State Long Term Care Ombudsman, and adult protective services offices.
   e. The Unit provides timely information, when requested, to those agencies identified
      in (D) above regarding the status of referrals.
   f. The Unit takes steps, through public outreach or other means, to encourage the
      public to refer cases to the Unit.


Vermont State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00360)            19
5. A Unit takes steps to maintain a continuous case flow and to complete cases in an
appropriate timeframe based on the complexity of the cases.
   a.	 Each stage of an investigation and prosecution is completed in an appropriate
       timeframe.
   b. Supervisors approve the opening and closing of all investigations and review the
      progress of cases and take action as necessary to ensure that each stage of an
      investigation and prosecution is completed in an appropriate timeframe.
   c. Delays to investigations and prosecutions are limited to situations imposed by
      resource constraints or other exigencies.
6. A Unit’s case mix, as practicable, covers all significant provider types and
includes a balance of fraud and, where appropriate, patient abuse and neglect cases.
   a.	 The Unit seeks to have a mix of cases from all significant provider types in the
       State.
   b. For those States that rely substantially on managed care entities for the provision
      of Medicaid services, the Unit includes a commensurate number of managed care
      cases in its mix of cases.
   c. The Unit seeks to allocate resources among provider types based on levels of
      Medicaid expenditures or other risk factors. Special Unit initiatives may focus on
      specific provider types.
   d. As part of its case mix, the Unit maintains a balance of fraud and patient abuse and
      neglect cases for those States in which the Unit has original jurisdiction to
      investigate or prosecute patient abuse and neglect cases.
   e. As part of its case mix, the Unit seeks to maintain, consistent with its legal 

      authorities, a balance of criminal and civil fraud cases.

7. A Unit maintains case files in an effective manner and develops a case
management system that allows efficient access to case information and other
performance data.
   a.	 Reviews by supervisors are conducted periodically, consistent with MFCU
       policies and procedures, and are noted in the case file.
   b. Case files include all relevant facts and information and justify the opening and
      closing of the cases.
   c. Significant documents, such as charging documents and settlement agreements, are
      included in the file.
   d. Interview summaries are written promptly, as defined by the Unit’s policies and
      procedures.
   e. The Unit has an information management system that manages and tracks case
      information from initiation to resolution.

Vermont State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00360)             20
   f. The Unit has an information management system that allows for the monitoring
      and reporting of case information, including the following:
       1.	 The number of cases opened and closed and the reason that cases are closed.
       2.	 The length of time taken to determine whether to open a case referred by the
           State Medicaid agency or other referring source.
       3.	 The number, age, and types of cases in the Unit’s inventory/docket.
       4.	 The number of referrals received by the Unit and the number of referrals by
           the Unit to other agencies.
       5.	 The dollar amount of overpayments identified.
       6.	 The number of cases criminally prosecuted by the Unit or referred to others
           for prosecution, the number of individuals or entities charged, and the number
           of pending prosecutions.
       7.	 The number of criminal convictions and the number of civil judgments.
       8.	 The dollar amount of fines, penalties, and restitution ordered in a criminal
           case and the dollar amount of recoveries and the types of relief obtained
           through civil judgments or prefiling settlements.
8. A Unit cooperates with OIG and other Federal agencies in the investigation and
prosecution of Medicaid and other health care fraud.
   a.	 The Unit communicates on a regular basis with OIG and other Federal agencies
       investigating or prosecuting health care fraud in the State.
   b. The Unit cooperates and, as appropriate, coordinates with OIG’s Office of
      Investigations and other Federal agencies on cases being pursued jointly, cases
      involving the same suspects or allegations, and cases that have been referred to the
      Unit by OIG or another Federal agency.
   c. The Unit makes available, to the extent authorized by law and upon request by
      Federal investigators and prosecutors, all information in its possession concerning
      provider fraud or fraud in the administration of the Medicaid program.
   d. For cases that require the granting of “extended jurisdiction” to investigate
      Medicare or other Federal health care fraud, the Unit seeks permission from OIG
      or other relevant agencies under procedures as set by those agencies.
   e. For cases that have civil fraud potential, the Unit investigates and prosecutes such
      cases under State authority or refers such cases to OIG or the U.S. Department of
      Justice.
   f. The Unit transmits to OIG, for purposes of program exclusions under section 1128
      of the Social Security Act, all pertinent information on MFCU convictions within
      30 days of sentencing, including charging documents, plea agreements, and
      sentencing orders.

Vermont State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00360)              21
   g. The Unit reports qualifying cases to the Healthcare Integrity & Protection 

      Databank, the National Practitioner Data Bank, or successor data bases.

9. A Unit makes statutory or programmatic recommendations, when warranted, to
the State government.
   a.	 The Unit, when warranted and appropriate, makes statutory recommendations to
       the State legislature to improve the operation of the Unit, including amendments
       to the enforcement provisions of the State code.
   b. The Unit, when warranted and appropriate, makes other regulatory or
      administrative recommendations regarding program integrity issues to the State
      Medicaid agency and to other agencies responsible for Medicaid operations or
      funding. The Unit monitors actions taken by the State legislature and the State
      Medicaid or other agencies in response to recommendations.
10. A Unit periodically reviews its Memorandum of Understanding (MOU) with the
State Medicaid agency to ensure that it reflects current practice, policy, and legal
requirements.
   a.	 The MFCU documents that it has reviewed the MOU at least every 5 years, and
       has renegotiated the MOU as necessary, to ensure that it reflects current practice,
       policy, and legal requirements.
   b. The MOU meets current Federal legal requirements as contained in law or
      regulation, including 42 CFR 455.21, “Cooperation with State Medicaid fraud
      control units,” and 42 CFR 455.23, “Suspension of payments in cases of fraud.”
   c. The MOU is consistent with current Federal and State policy, including any
      policies issued by OIG or the Centers for Medicare & Medicaid Services (CMS).
   d. Consistent with performance standard 4, the MOU establishes a process to ensure
      the receipt of an adequate volume and quality of referrals to the Unit from the State
      Medicaid agency.
   e. The MOU incorporates by reference the CMS performance standard for Referrals
      of Suspected Fraud from a State Agency to a Medicaid Fraud Control Unit.
11. 	A Unit exercises proper fiscal control over Unit resources.
   a.	 The Unit promptly submits to OIG its preliminary budget estimates, proposed
       budget, and Federal financial expenditure reports.
   b. The Unit maintains an equipment inventory that is updated regularly to reflect all
      property under the Unit’s control.
   c. The Unit maintains an effective time and attendance system and personnel activity
      records.
   d. The Unit applies generally accepted accounting principles in its control of Unit
      funding.

Vermont State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00360)            22
   e. The Unit employs a financial system in compliance with the standards for financial
      management systems contained in 45 CFR 92.20.
12. 	A Unit conducts training that aids in the mission of the Unit.
   a.	 The Unit maintains a training plan for each professional discipline that includes
       an annual minimum number of training hours and that is at least as stringent as
       required for professional certification.
   b. The Unit ensures that professional staff comply with their training plans and
      maintain records of their staff’s compliance.
   c. Professional certifications are maintained for all staff, including those that fulfill
      continuing education requirements.
   d. The Unit participates in MFCU related training, including training offered by OIG
      and other MFCUs, as such training is available and as funding permits.
   e. The Unit participates in cross training with the fraud detection staff of the State
      Medicaid agency. As part of such training, Unit staff provide training on the
      elements of successful fraud referrals and receive training on the role and
      responsibilities of the State Medicaid agency.




Vermont State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00360)                23
APPENDIX C
Referrals of Patient Abuse and Neglect, Provider Fraud, and Theft of
Patient Funds to the Vermont Unit by Source, Fiscal Years 2010 through
2012
Table C-1: Total Referrals of Patient Abuse and Neglect, Provider Fraud, and Theft of
Patient Funds to the Unit and Annual Average Referrals
                                  Fiscal Year (FY)                                    3-Year              Annual
Case Type                                                  FY 2011        FY 2012
                                       2010                                            Total              Average
Provider Fraud                                      84            53           87           224                      75
Patient Abuse and Neglect                          113            53           75           241                      80
Theft of Patient Funds                              25            14           30              69                    23
  Total                                            222           120          192           534                  178

Source: OIG analysis of Unit data, 2013.


Table C-2: Unit Referrals, by Referral Source
                              FY 2010                            FY 2011                            FY 2012
                                                                             Theft
                              Abuse        Theft of              Abuse                          Abuse         Theft of             Percentage
                                                                              of
                    Fraud      and         Patient       Fraud    and                 Fraud      and          Patient     Total       of All
                                                                            Patient
                              Neglect       Funds                Neglect                        Neglect        Funds                Referrals
Referral Source                                                             Funds
Medicaid Agency
– Program                                                                                                                   23          4.3%
Integrity Unit           5       0            0            3         0         0       15             0          0
Medicaid Agency
                                                                                                                               2        0.4%
– Other                  1       0            0            0         0         0        1             0          0
State Survey /
                                                                                                                           256         47.9%
Certification            13     92           18           5          30        5       6             64         23
State Agencies –
                                                                                                                            15          2.8%
Other                    2       1            1            0         0         0        9             2          0
Licensing Board          7       3            0           3          4         1       1              0          0          19          3.6%
Law
                                                                                                                               6        1.1%
Enforcement              1       0            0           1          2         0       0              2          0
OIG                      1       1            1            0         1         0       2              0          0             6        1.1%
Prosecutor               15      1            0           14         1         0       16             0          0          47          8.8%
Provider                 2       0            1           4          2         1       9              1          0          20          3.8%
Provider                                                                                                                    18          3.4%
Association              10      0            0           0          0         0       8              0          0
Private Health                                                                                                                 0        0.0%
Insurer                  0       0            0            0         0         0        0             0          0

Ombudsman                0       1            0           0          0         0       0              0          0             1        0.2%
Adult Protective
                                                                                                                            41          7.7%
Services                 8       8            1           5          10        3       4              0          2
Private Citizen          14      4            2           12         2         3       12             5          2          56         10.5%

Unit Hotline             0       0            0           0          0         0       0              0          0             0        0.0%
Other                    5       2            1            6         1         1       4              1          3          24          4.5%
Total                    84     113          25           53         53       14       87            75         30         534        100.0%
Annual Total                                      222                           120                                 192
Source: OIG analysis of Unit data, 2013.



Vermont State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00360)                                           24
  APPENDIX D
  Cases Opened and Closed by Provider Category and Case Type, Fiscal
  Years 2010 through 2012
  Table D-1: Total Annual Opened and Closed Cases, by Case Type

                                       Fiscal Year                                                 3-Year         Annual
    Case Type                                                 FY 2011             FY 2012
                                        (FY) 2010                                                   Total         Average

    Opened                                        83                    49                 59          191                  64

                 Provider Fraud                   54                    32                 45          131                  44
      Patient Abuse and Neglect                   29                    17                 11           57                  19
          Theft of Patient Funds                     0                   0                  3               3                1


    Closed                                        76                    29                 70          175                  58
                 Provider Fraud                   54                    16                 51          121                  40
      Patient Abuse and Neglect                   21                    13                 18           52                  17
          Theft of Patient Funds                     1                   0                  1               2                1

  Source: OIG analysis of Unit data, 2013.



 Table D-2: Outcomes for Closed Cases, by Case Type


                             Closed by                   Closed by Civil              Closed due to
                                                                                                                  Closed by Referral
                            Prosecution                      Action                Insufficient evidence



       Type of          FY       FY         FY        FY       FY        FY         FY           FY     FY        FY     FY       FY
   Investigations      2010     2011       2012      2010     2011      2012       2010         2011   2012      2010   2011     2012
 Investigations of
                           3        3         7          12       9          17       38           1        24      1        3         3
 Fraud
 Investigations of
 Patient Abuse and         0        1         2           0       0           0       21          11        16      0        1         1
 Neglect
 Investigation of
 Theft of Patient          1        0         0           0       0           0        0           0         1      0        0         0
 Funds
          Total
                           4        4         9          12       9          17       59          12        41      1        4         4
   Investigations

Source: OIG analysis of Unit data, 2013.




 Vermont State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00360)                                                 25
Table D-3: Provider Fraud Cases Opened and Closed, by Provider Type

Provider Type                                      FY 2010               FY 2011               FY 2012

Facilities                                  Opened       Closed   Opened       Closed   Opened       Closed
Hospitals                                     0              1      3              1      0              3
Nursing Facilities                            3              1      0              1      5              2
Other Long-Term Care Facilities               0              0      0              0      0              0
Substance Abuse Treatment Centers             0              0      0              0      0              0
Other Facilities                              2              3      0              0      3              0
Practitioners                               Opened       Closed   Opened       Closed   Opened       Closed
Doctors of Medicine or Osteopathy             2              5      2              0      2              0
Dentists                                      1              1      0              0      0              0
Podiatrists                                   0              0      0              0      0              0
Optometrist/Opticians                         0              0      0              0      0              0
Counselors/Psychologists                      3              3      3              0      1              5
Chiropractors                                 0              0      0              0      0              0
Other Practitioners                           1              0      1              0      0              0
Medical Support                             Opened       Closed   Opened       Closed   Opened       Closed
Pharmacies                                    0              0      4              0      4              2
Pharmaceutical Manufacturers                  10             9      8              7      6              11
Durable Medical Equipment and/or
Suppliers                                     2              1      0              1      2              2
Laboratories                                  1              1      0              0      0              0
Transportation Services                       1              0      1              0      2              2
Home Health Care Agencies                     0              0      2              0      1              1
Home Health Care Aides                        25             22     7              5      17             21
Nurses/Physician Assistants/
Nurse Practitioners/Certified Nurse Aides
                                              2              2      0              1      0              1
Radiologists                                  0              0      0              0      0              0
Other Medical Support                         0              2      0              0      0              0
Program Related                             Opened       Closed   Opened       Closed   Opened       Closed
Managed Care                                  0              0      0              0      0              0
Medicaid Program Administration               0              0      0              0      0              0
Billing Company                               0              0      0              0      0              0
Other Program Related                         1              3      1              0      2              1
Total                                         54             54     32             16     45             51
Source: OIG analysis of Unit data, 2013.




Vermont State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00360)                           26
 Table D-4: Cases of Patient Abuse and Neglect Opened and Closed, by Provider Type


 Provider Type             FY 2010                FY 2011           FY 2012
                        Opene
                                Closed         Opened   Closed   Opened   Closed
                            d

 Nursing Facilities           7           3         7       3         3       7

 Other Long-Term
                              0           0         0        0        1        1
 Care

 Nurses/Physician
 Assistants/
 Nurse Practitioners/         9           8         4        5        3        5
 Certified Nurse
 Aides

 Home Health Aides            3           2         2        1        3        3

 Other                       10           8         4        4        1        2

   Total                     29           21       17       13       11       18

Source: OIG analysis of Unit data, 2013




 Table D-5: Cases of Theft of Patient Funds Opened and Closed, by Provider Type


 Provider Type              FY 2010               FY 2011           FY 2012

                        Opened     Closed      Opened   Closed   Opened   Closed

 Non-Direct Care              0           0         0        0        0        0

 Nurses/Physician
 Assistants/Nurse
 Practitioners/               0           1         0        0        0        0
 Certified Nurse
 Aides

 Home Health Aide             0           0         0        0        0        0

 Other                        0           0         0        0        3        1

   Total                      0            1        0        0        3        1

Source: OIG analysis of Unit data, 2013




 Vermont State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00360)     27
APPENDIX E
Confidence Intervals for Estimates

Table E-1: Confidence Intervals for Key Data from Case File Review


Estimate Description                          Sample Size   Point Estimate           95-Percent
                                                                             Confidence Interval
Case Files With Opening Documents                    100            89.0%            82.9–93.1%

Case Files With Closing Documents                     70            95.8%            89.8–98.3%

Case Files With No Documentation Indicating
at Least One Supervisory Review (Does Not             75            96.0%            90.3–98.4%
Include Global Cases)




Vermont State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00360)                28
APPENDIX F
Unit Comments




Vermont State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00360)   29
Vermont State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00360)   30
          Conclusion

                 The Vermont MFCU appreciates the efforts of the HHS-010 and the consultations
          provided by the Onsite Review. We remain committed to meeting and exceeding the standards
          for Medicaid Fraud Control Units consistent with our mission, and look forward to implementing
          the courses of action discussed above.

                                                     Sincerely,

                                                        /S/
                                                     Edward A. Baker
                                                     Assistant Attorney General
                                                     Director, MFRAU




Vermont State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00360)                            31
               ACKNOWLEDGMENTS
               This report was prepared under the direction of Jodi Nudelman, Regional
               Inspector General for Evaluation and Inspections in the New York regional
               office, and Nancy Harrison and Meridith Seife, Deputy Regional
               Inspectors General.
               Vincent Greiber served as the team leader for this study. Other Office of
               Evaluation and Inspections staff from the New York regional office who
               conducted the study include Jennifer Karr. Central office staff who
               provided support include Susan Burbach, Kevin Farber, Christine Moritz,
               and Sherri Weinstein. Office of Investigations staff who provided support
               include Michael Robinson.




Vermont State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00360)        32
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
